2141 Downyflake Lane
Allentown, PA 18103
610.797.7440
800.446.5598
PeopleFirstCU.org

CREDIT CARD ACCOUNT AGREEMENT
AND FEDERAL DISCLOSURE STATEMENT
THIS IS YOUR CREDIT LINE ACCOUNT AGREEMENT AND IT INCLUDES NECESSARY FEDERAL TRUTHIN-LENDING DISCLOSURE STATEMENTS AND ANY SPECIAL INSTRUCTIONS REGARDING THE USE
OF ANY ACCOUNT ACCESS DEVICE. PLEASE READ THIS AGREEMENT CAREFULLY AND NOTIFY US
AT ONCE IF ANY PARTS ARE UNCLEAR.

Member Number

Interest Rate and Interest Charges
Annual Percentage Rate (APR)
For Purchases

VISA Platinum _______% Introductory APR for 6 months.
After that, Your APR will be
on the Prime Rate.

_______%. This APR will vary with the market based

VISA Platinum Rewards _______% Introductory APR for 6 months.
After that, Your APR will be
on the Prime Rate.

_______%. This APR will vary with the market based

VISA Platinum Secured _______% Introductory APR for 6 months.
After that, Your APR will be
on the Prime Rate.
Annual Percentage Rate (APR)
For Balance Transfers

_______%. This APR will vary with the market based

VISA Platinum ________% Introductory APR for 6 months.
After that, Your APR will be ________%. This APR will vary with the market based on the
Prime Rate.
VISA Platinum Rewards ________% Introductory APR for 6 months.
After that, Your APR will be ________%. This APR will vary with the market based on the
Prime Rate.
VISA Platinum Secured ________% Introductory APR for 6 months.
After that, Your APR will be ________%. This APR will vary with the market based on the
Prime Rate.

Annual Percentage Rate (APR)
For Cash Advance

VISA Platinum ________% Introductory APR for 6 months.
After that, Your APR will be ________%. This APR will vary with the market based on the
Prime Rate.
VISA Platinum Rewards ________% Introductory APR for 6 months.
After that, Your APR will be ________%. This APR will vary with the market based on the
Prime Rate.
VISA Platinum Secured ________% Introductory APR for 6 months.
After that, Your APR will be ________%. This APR will vary with the market based on the
Prime Rate.

Paying Interest

Your due date is at least 27 days after the close of each billing cycle. We will not charge You
interest on purchases if You pay Your entire balance owed each month by Your payment's
due date. We will begin charging interest on cash advances and balance transfers on the
transaction date.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a Credit Card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

SEE TOP OF PAGE 2 for more important information regarding Your Account

Copyright Oak Tree Business Systems, Inc., 2015-2019. All Rights Reserved.

Page 1 of 5

OTBS 016CC Intro FRB_Web PEOP (4/19)

Fees
Annual Fee

For VISA Platinum Secured, $20.00

Transaction Fees
 Foreign Transaction Fee

1.00% of each foreign currency transaction in U.S. dollars.
0.80% of each U.S. Dollar transaction that occurs in a foreign country.

Penalty Fees
 Returned Payment
 Late Payment

Up to $35.00
Up to $35.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See Your
Account Agreement for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.

SEE PAGE 1 for important information about Your Account

DEFINITIONS. In this Agreement, the reference to "We," "Us," "Our" and "Credit Union" mean PEOPLE FIRST FEDERAL CREDIT UNION. The words "You" and "Your" mean
each person who accepts this Agreement or uses the VISA Platinum, VISA Platinum Rewards or VISA Platinum Secured Credit Cards. "Account" means the VISA Platinum,
VISA Platinum Rewards or VISA Platinum Secured Credit Card Account established for You. The words "Credit Card" or "Card" mean any VISA Platinum, VISA Platinum
Rewards or VISA Platinum Secured Credit Cards issued to You by Us and any duplicates and renewals. "Letter Checks" mean the special Account access devices that We
may provide for Your use from time to time. If this is a joint account, read singular pronouns in the plural.

ANNUAL
PERCENTAGE
RATE

Index

Margin

Monthly
Periodic
Rate

VISA Platinum

____________

____________

_______________%

_______________%

VISA Platinum Rewards

____________

____________

_______________%

_______________%

VISA Platinum Secured

____________

____________

_______________%

_______________%

Credit
Card Type

Variable Rate

Copyright Oak Tree Business Systems, Inc., 2015-2019. All Rights Reserved.

Page 2 of 5

OTBS 016CC Intro FRB_Web PEOP (4/19)

PROMISE TO PAY. Your Account may be accessible through a variety of means
which could include advance request forms, vouchers, checks, charge slips, Credit
Cards, Letter Checks and the like. Regardless of the access means, You promise to
pay Us all amounts charged to Your Account by You or by any user who has access
to Your Account, with actual, apparent or implied authority for use of Your Account,
including Finance Charges and other fees or charges described herein.
JOINT ACCOUNTS. Each Cardholder will be responsible, jointly and severally, for
the repayment of amounts owed. You understand that any Card which is requested
and approved, will be mailed only to the primary Cardholder at the address that We
have on file for You . We may refuse to follow any instructions which run counter to
this provision.
OWNERSHIP. All access devices remain Our property and may be cancelled by Us
at any time without notice. You agree to surrender any such access device and to
discontinue its use immediately upon Our request.
USE OF YOUR CARD. You may use Your Card to buy goods and services in any
place that it is honored and to get cash advances from Us or another financial
institution. If You are issued a cash advance draft, it will be imprinted with Your Card
and You will receive a copy of the draft. You agree not to use Your Card for
transactions involving Internet gambling and/or wagering of any type and/or for
transactions prohibited by state and/or federal law.
ISSUANCE OF PERSONAL IDENTIFICATION NUMBER. We will issue You a
Personal Identification Number (PIN) for use with Your Card. This PIN is confidential
and should not be disclosed to anyone. You may use Your PIN and Your Card to
access Your Account and all sums advanced will be added to Your Account balance.
In the event a use of Your PIN constitutes an Electronic Fund Transfer, the terms and
conditions of Your Electronic Fund Transfer Agreement may affect Your rights.
LINE OF CREDIT LIMIT. If Your application for a Card is approved, You will be notified
of Your specific Credit Limit for transactions made under Your Account. Unless You
are in default, the Credit Limit established for You will be self-replenishing as You
make payments on Your Account. You will keep Your unpaid balance within the Credit
Limit set by us, and You will pay any amount over Your Credit Limit on Our demand
whether or not We authorize the advance which caused You to exceed Your Credit
Limit. Even if Your unpaid balance is less than Your Credit Limit, You will have no
credit available during any time that any aspect of Your Account is in default.
FINANCE CHARGES. In the case of any transactions on Your Account, the balances
subject to the periodic Finance Charge are the average daily transactions balances
outstanding during the month (including new transactions). Separate average daily
balances are calculated for purchases, balance transfers and cash advances
(including Letter Checks).
To get the average daily balance for purchases, We take the beginning balance for
purchases each day, add any new purchases, debit adjustments or other charges
and subtract any payments, credits and unpaid Finance Charges. This gives Us the
daily balance for purchases. Then, We add up all the daily balances for purchases
during the billing cycle and divide them by the number of days in the billing cycle.
This gives Us the average daily transactions balances for purchases. To get the
average daily balance for balance transfers, We take the beginning balance for
balance transfers each day, add any new balance transfers, debit adjustments or
other charges and subtract any payments, credits and unpaid Finance Charges.
This gives Us the daily balance for balance transfers. Then, We add up all the daily
balances for balance transfers during the billing cycle and divide them by the
number of days in the billing cycle. This gives Us the average daily transactions
balances for balance transfers. To get the average daily balance for cash advances
(including Letter Checks), We take the beginning balance for cash advances and
Letter Checks each day, add any new cash advances and Letter Checks, debit
adjustments or other charges and subtract any payments, credits and unpaid
Finance Charges. This gives Us the daily balance for cash advances (including
Letter Checks). Then, We add up all the daily balances for cash advances (including
Letter Checks) during the billing cycle and divide them by the number of days in the
billing cycle. This gives Us the average daily transactions balances for cash
advances (including Letter Checks). The Finance Charge for a billing cycle is
computed by multiplying each of the average daily balances subject to a Finance
Charge by the applicable Monthly Periodic Rate. The sum of these separate
Finance Charge calculations is the Finance Charge You owe for that billing cycle.
Your payment due date is at least 27 days after the close of each billing cycle. You can
avoid Finance Charges on purchases each month by paying the full amount of the entire
balance owed by the payment due date reflected in Your periodic statement.
Otherwise, the new balance of purchases, and subsequent purchases from the date
they are posted to Your Account, will be subject to a Finance Charge. Balance
Transfers and cash advances (including Letter Checks) are always subject to a
Finance Charge from the later of the date they are posted to Your Account or from
the first day of the billing cycle in which the cash advance is posted to Your Account.
Copyright Oak Tree Business Systems, Inc., 2015-2019. All Rights Reserved.

Transactions will accrue finance charges at an introductory Monthly Periodic Rate of
_______________% (corresponding to an ANNUAL PERCENTAGE RATE of
_______________%) through the first 6 billing cycles following the date that Your
Account is established (i.e. 6 months). Upon the expiration of the introductory rate
period, the entire balance of transactions existing at that time and in the future will be
subject to the non-introductory Monthly Periodic Rate and its corresponding Annual
Percentage Rate described elsewhere in this Agreement.
VARIABLE RATE. All advances are subject to a Variable Rate which is based on the
highest Prime Rate as published in the Money Rates section of The Wall Street
Journal in effect on the last business day of each calendar month ("Index") plus Our
Margin. The Index plus the Margin equals the Interest Rate. Changes in the Index will
cause changes in the Interest Rate on the first day of the billing cycle that immediately
follows any such change in the Index. Increases or decreases in the Interest Rate will
cause like increases or decreases in the Finance Charge and will affect the number
of Your regularly scheduled payments. Your Interest Rate will never be greater than
18.00% and will apply to Your remaining principal balance.
MINIMUM MONTHLY PAYMENT. Though You need only pay the Minimum Monthly
Payments, You understand that You have the right to repay Your Account or make
larger payments at any time without penalty. You will only be charged periodic Finance
Charges to the date You repay Your entire Account balance. Any partial payment or
prepayment of Your Account will not delay Your next scheduled payment. All
payments to Us must be in lawful money of the United States. Your Periodic Statement
will include instructions on where to send Your Minimum Monthly Payment. Payments
sent by You to an address other than that which appears on Your statement may be
subject to a delay in crediting to Your Account for up to five days after We receive
Your payment.
Payments will be applied in the following order: (a) any Finance Charges due for Your
balance for balance transfers; (b) any Finance Charges due for Your balance for cash
advances; (c) any Finance Charges due for Your balance for purchases; (d) any Fees
and Charges owing; (e) Your balance for balance transfers; (f) Your balance for cash
advances; and then to (g) Your balance for purchases. Any amounts received in
excess of Your required Minimum Monthly Payment will be applied as required by
applicable law.
Any unpaid portion of any Finance Charges and Late Charges will be paid by
subsequent payments and will not be added to the principal. You understand that any
payment that delays the repayment of Your unpaid balance will increase Your Finance
Charge and any payment that accelerates the reduction of Your unpaid balance will
decrease Your Finance Charges.
Minimum Monthly Payments will be an amount equal to 2.00% of Your unpaid Account
balance; subject to the lesser of $10.00 or Your balance. In addition to the Minimum
Monthly Payment, You will also be required to pay any prior payments due which
remain unpaid and any amounts which exceed Your Credit Limit.
CONSENSUAL LIEN. As permitted by law, You grant and consent to a lien
on Your shares or other deposit accounts with Us (other than those
deposits established under a governmental-approved tax deferral plan such
as an IRA or Keogh account) and any dividends due or to become due to
You from Us to the extent You owe on any unpaid Credit Card balance.
OTHER SECURITY. Collateral (other than household goods or any dwelling)
given as security under this Agreement or for any other loan You may have with
Us will secure all amounts You owe Us now and in the future if that status is
reflected in the "Truth-In-Lending Disclosure" in any particular Agreement
evidencing such debt.
PERIODIC STATEMENT. On a regular basis, You will receive a statement showing
all transactions on Your Account including amounts paid and borrowed since Your last
statement. We will mail You a statement each billing cycle in which there is a debit or
credit balance or when a Finance Charge is imposed. We need not send You a
statement if We feel Your Account is uncollectible or if We have started collection
proceedings against You because You defaulted. Each statement is deemed to be a
correct statement of account unless You establish a billing error pursuant to the
Federal Truth-In-Lending Act.
OUR RESPONSIBILITIES TO HONOR LETTER CHECKS. We are under no
obligation to honor Your Letter Checks if: (1) by paying a Letter Check, You would
exceed Your Credit Limit; (2) Your Cards or Letter Checks have been reported lost or
stolen; (3) Your Account has been cancelled or has expired; or (4) a Letter Check is
used for payment on this or any other loan Account with Us. If a postdated Letter
Check is paid and, as a result, any other Letter Check is returned unpaid, We are not
responsible for any resulting loss or liability.
TRANSACTION SLIPS. Your periodic statement will identify the merchant, electronic
terminal or financial institution at which transactions were made, but sales, cash
advances, credit or other slips will not be returned with the statement. You will retain

Page 3 of 5

OTBS 016CC Intro FRB_Web PEOP (4/19)

the copy of such slips furnished at the time of the transaction in order to verify Your
monthly statement.
CREDITS. If a merchant who honors Your Card gives You credit for returns or
adjustments, the merchant will do so by sending Us a slip which will be posted to Your
Account. If Your credits and payments exceed what You owe Us, We will hold and
apply this credit against future purchases and cash advances, or if it is $1.00 or more,
refund it on Your written request or automatically deposit it to Your Share Account
after six months.
LATE CHARGE. If Your payment is not received by the payment due date, You will be
charged the lesser of: (a) the amount of the minimum payment due; or (b) $35.00.
ANNUAL MEMBERSHIP FEE (VISA PLATINUM SECURED). You will be charged
an annual membership fee in an amount equal to $20.00 on the date Your VISA
Platinum Secured Credit Card is established, and subsequently, on the anniversary
date each year thereafter. The fee is required each year in order to continue credit
availability, whether or not You have used Your Card throughout the year.
OTHER FEES AND CHARGES. You agree to pay Us the following fees and
charges associated with the use of Your Card which will be charged to Your Account
as purchases: (a) the lesser of $35.00 or the required minimum payment amount
for any check (or other negotiable instrument) used for payment on Your Account
that is returned unpaid; (b) $35.00 for any Letter Check on which You request Us
to stop payment; and (c) the lesser of $35.00 or the face amount of the related
Letter Check that We return unpaid as a result of Your Account being in default.
DEFAULT. You will be in default if: (a) You do not make any payment or perform any
obligation under this Agreement, or any other agreement that You may have with Us;
or (b) You should die, become involved in any insolvency, receivership or custodial
proceeding brought by or against You; or (c) You have made a false or misleading
statement in Your credit application and/or in Your representations to Us while You
owe money on Your Account; or (d) A judgment or tax lien should be filed against You
or any attachment or garnishment should be issued against any of Your property or
rights, specifically including anyone starting an action or proceeding to seize any of
Your funds on deposit with Us; and/or (e) We should, in good faith, believe Your ability
to repay Your indebtedness hereunder is or soon will be impaired, time being of the
very essence.
If You are in default, We may, without notice or demand, and to extent permitted by
law, cancel Your rights under this Agreement, declare the entire unpaid balance
immediately due and payable and require the return of all Cards and other Account
Access devices.
COLLECTION COSTS. To the extent permitted by law, You will reimburse Us for
all of Our costs and expenses, including reasonable attorneys' fees incurred in the
course of collecting any amounts owed under this Agreement or for the recovery of
any collateral.
CREDIT INSURANCE. Credit insurance is not required for any extension of credit under
this Agreement. However, You may purchase any credit insurance available through Us
and have the premiums added to the outstanding balance of Your Account. If You elect
to do so, You will be given the necessary disclosures and documents separately. Any
credit insurance premiums will be charged to Your Account as a purchase.
ENFORCEMENT. We do not lose Our rights under this or any related agreement if
We delay enforcing them. We can accept late payments, partial payments, or any
other payments, even if they are marked "paid in full," without losing any of Our rights
under this Agreement. If any provision of this or any related agreement is determined
to be unenforceable or invalid, all other provisions remain in full force and effect.
UNAUTHORIZED USE. You may be liable for the unauthorized use of Your
Account. You will not be liable for the unauthorized use that occurs after You notify
Us orally and in writing at the address or telephone number shown in this
Agreement, of the loss, theft, or possible unauthorized use. In any case, Your
liability will not exceed $50.00.
NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly if You move or
otherwise have a change of address.
CHANGE IN TERMS. We may change the terms of this Agreement by mailing or
delivering to You written notice of the changes as prescribed by the Federal Truth-InLending Act. To the extent permitted by law, the right to change the terms of this
Agreement includes, but is not limited to, the right to change the periodic rate
applicable to Your unpaid balance and/or future advances.
REFUSAL TO HONOR CARDS OR LETTER CHECKS. We are not liable for the refusal
or inability of merchants, financial institutions and others to accept the Cards or Letter
Checks, or electronic terminals to honor the Cards or complete a Card withdrawal, or for
their retention of the Cards or Letter Checks.
Copyright Oak Tree Business Systems, Inc., 2015-2019. All Rights Reserved.

LOST OR STOLEN CARDS, ACCOUNT NUMBERS AND/OR LETTER CHECKS.
To report a lost or stolen Card, Letter Check or Account Number, You will immediately
call (800) 325-3678. You may also write to the Credit Card Security Department, P.O.
Box 24747, Tampa, FL 33623-4747.
FOREIGN TRANSACTIONS. For transactions initiated in foreign countries and
foreign currencies, the exchange rate between the transaction currency and the
billing currency (U.S. dollars) will be: (a) a rate selected by VISA from the range
of rates available in wholesale currency markets for the applicable central
processing date, which rate may vary from the rate VISA itself receives; or (b)
the government-mandated rate in effect for the applicable central processing
date. For transactions that are initiated in a foreign currency, You will be charged
1.00% of the final settlement amount. For transactions occurring in foreign
countries and initiated in U.S. Dollars, You will be charged 0.80% of the final
settlement amount.
EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or other
slips You may sign or receive when using the Card contain terms, this Agreement is
the contract which solely applies to all transactions involving Your Account.
CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this
Agreement. By signing the Application and Your Credit Card, by using the Card, by
using Your Account or by authorizing another to use Your Account, You agree to
accept its terms.
INTEGRATED DOCUMENTS. Any separate sheet of paper labeled "Additional
Disclosure - Federal Truth-In-Lending Act" which is delivered to You and relates to
this Agreement is an integrated part of this Agreement And Disclosure.
UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide
facts to update personal information or other financial information related to You, at
Our request. You also agree that We may, from time to time, as We deem
necessary, make inquiries pertaining to Your employment, credit standing and
financial responsibility in accordance with applicable laws and regulations. You
further agree that We may give information about the status and payment history of
Your Account to consumer credit reporting agencies, a prospective employer or
insurer, or a state or federal licensing agency having any apparent legitimate
business need for such information.
TERMINATION. Subject to applicable law, either You or We may cancel Your Account
at any time whether or not You are in default. You will, in any case, remain liable to
pay any unpaid balances according to the terms of this Agreement.
GOVERNING LAW. This Agreement is controlled and governed by the laws of the
Commonwealth of Pennsylvania except to the extent that such laws are inconsistent
with controlling federal law.
Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our responsibilities under the Fair
Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at Our address shown in
this Agreement. In Your letter, give Us the following information:




Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill, describe
what You believe is wrong and why You believe it is a mistake.

You must contact Us:



Within 60 days after the error appeared on Your statement.
At least three business days before an automated payment is scheduled,
if You want to stop payment on the amount You think is wrong.

You must notify Us of any potential errors in writing. You may call Us, but if You do
We are not required to investigate any potential errors and You may have to pay the
amount in question.
What Will Happen After We Receive Your Letter
When We receive Your letter, We must do two things:
1) Within 30 days of receiving Your letter, We must tell You that We received Your
letter. We will also tell You if We have already corrected the error.
2) Within 90 days of receiving Your letter, We must either correct the error or explain
to You why We believe the bill is correct.

Page 4 of 5

OTBS 016CC Intro FRB_Web PEOP (4/19)

While We investigate whether or not there has been an error:





Your Rights If You Are Dissatisfied
With Your Credit Card Purchases

We cannot try to collect the amount in question, or report You as delinquent on
that amount.
The charge in question may remain on Your statement, and We may continue
to charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible
for the remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

After We finish Our investigation, one of two things will happen:



If We made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.
If We do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send You a statement
of the amount You owe and the date payment is due. We may then report You
as delinquent if You do not pay the amount We think You owe.

If You receive Our explanation but still believe Your bill is wrong, You must write to Us
within 10 days telling Us that You still refuse to pay. If You do so, We cannot report
You as delinquent without also reporting that You are questioning Your bill. We must
tell You the name of anyone to whom We reported You as delinquent, and We must
let those organizations know when the matter has been settled between Us. If We do
not follow all of the rules above, You do not have to pay the first $50.00 of the amount
You question even if Your bill is correct.

Copyright Oak Tree Business Systems, Inc., 2015-2019. All Rights Reserved.

If You are dissatisfied with the goods or services that You have purchased with Your
Credit Card, and You have tried in good faith to correct the problem with the merchant,
You may have the right not to pay the remaining amount due on the purchase. To use
this right, all of the following must be true:
1) The purchase must have been made in Your home state or within 100 miles of
Your current mailing address, and the purchase price must have been more than
$50.00. (Note: Neither of these are necessary if Your purchase was based on an
advertisement We mailed to You, or if We own the company that sold You the
goods or services.)
2) You must have used Your Credit Card for the purchase. Purchases made with cash
advances from an ATM or with a check that accesses Your Credit Card account
do not qualify.
3) You must not yet have fully paid for the purchase.
If all of the criteria above are met and You are still dissatisfied with the purchase,
contact Us in writing at Our address shown in this Agreement.
While We investigate, the same rules apply to the disputed amount as discussed
above. After We finish Our investigation, We will tell You Our decision. At that
point, if We think You owe an amount and You do not pay, We may report You
as delinquent.

Page 5 of 5

OTBS 016CC Intro FRB_Web PEOP (4/19)

2141 Downyflake Lane
Allentown, PA 18103
610.797.7440
800.446.5598
PeopleFirstCU.org

PRICING INFORMATION ADDENDUM CREDIT CARD ACCOUNT AGREEMENT
AND FEDERAL DISCLOSURE STATEMENT
THIS IS YOUR ADDENDUM THAT CONTAINS PRICING INFORMATION FOR YOUR VISA
PLATINUM, VISA PLATINUM REWARDS AND VISA SECURED CREDIT CARD AGREEMENT AND
DISCLOSURE. PLEASE BE SURE TO READ THIS ADDENDUM CAREFULLY AND NOTIFY US AT
ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate
(APR) For Purchases

VISA Platinum 2.90% Introductory APR for 6 months.
After that, Your APR will be 10.40% - 18.00%, based on Your creditworthiness
at the time You establish Your Account. This APR will vary with the market based on the
Prime Rate.
VISA Platinum Rewards 2.90% Introductory APR for 6 months.
After that, Your APR will be 11.40% - 14.40%, based on Your creditworthiness
at the time You establish Your Account. This APR will vary with the market based on the
Prime Rate.
VISA Platinum Secured 2.90% Introductory APR for 6 months.
After that, Your APR will be 10.40%
This APR will vary with the market based on the Prime Rate.

Annual Percentage Rate
(APR) For Balance Transfers

VISA Platinum 2.90% Introductory APR for 6 months.
After that, Your APR will be 10.40% - 18.00%, based on Your creditworthiness at the time
You establish Your Account. This APR will vary with the market based on the Prime Rate.
VISA Platinum Rewards 2.90% Introductory APR for 6 months.
After that, Your APR will be 11.40% - 14.40%, based on Your creditworthiness at the time
You establish Your Account. This APR will vary with the market based on the Prime Rate.
VISA Platinum Secured 2.90% Introductory APR for 6 months.
After that, Your APR will be 10.40%
This APR will vary with the market based on the Prime Rate.

Annual Percentage Rate
(APR) For Cash Advances

VISA Platinum 2.90% Introductory APR for 6 months.
After that, Your APR will be 10.40% - 18.00%, based on Your creditworthiness at the time
You establish Your Account. This APR will vary with the market based on the Prime Rate.
VISA Platinum Rewards 2.90% Introductory APR for 6 months.
After that, Your APR will be 11.40% - 14.40%, based on Your creditworthiness at the time
You establish Your Account. This APR will vary with the market based on the Prime Rate.
VISA Platinum Secured 2.90% Introductory APR for 6 months.
After that, Your APR will be 10.40%
This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 27 days after the close of each billing cycle. We will not charge You
interest on purchases if You pay Your entire balance owed each month by Your payment's due
date. We will begin charging interest on cash advances and balance transfers on the
transaction date.

SEE TOP OF PAGE 2 for more important information regarding Your Account

Copyright Oak Tree Business Systems, Inc., 2015-2019. All Rights Reserved.

Page 1 of 2

OTBS 016ACC Intro FRB_Web PEOP (4/19)
Rev. (11/19)

Fees
For VISA Platinum Secured, $20.00

Annual Fee
Transaction Fees
 Foreign Transaction Fee

1.00% of each foreign currency transaction in U.S. dollars.
0.80% of each U.S. Dollar transaction that occurs in a foreign country.

Penalty Fees
 Returned Payment
 Late Payment

Up to $35.00
Up to $35.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See Your
Account Agreement for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.
SEE PAGE 1 for more important information regarding Your Account
FINANCE CHARGES. In the case of any transactions on Your Account, the balances subject to the periodic Finance Charge are the average daily transactions balances
outstanding during the month (including new transactions). Separate average daily balances are calculated for purchases, balance transfers and cash advances (including
Letter Checks).
To get the average daily balance for purchases, We take the beginning balance for purchases each day, add any new purchases, debit adjustments or other charges and
subtract any payments, credits and unpaid Finance Charges. This gives Us the daily balance for purchases. Then, We add up all the daily balances for purchases during the
billing cycle and divide them by the number of days in the billing cycle. This gives Us the average daily transactions balances for purchases. To get the average daily balance
for balance transfers, We take the beginning balance for balance transfers each day, add any new balance transfers, debit adjustments or other charges and subtract any
payments, credits and unpaid Finance Charges. This gives Us the daily balance for balance transfers. Then, We add up all the daily balances for balance transfers during the
billing cycle and divide them by the number of days in the billing cycle. This gives Us the average daily transactions balances for balance transfers. To get the average daily
balance for cash advances (including Letter Checks), We take the beginning balance for cash advances and Letter Checks each day, add any new cash advances and Letter
Checks, debit adjustments or other charges and subtract any payments, credits and unpaid Finance Charges. This gives Us the daily balance for cash advances (including
Letter Checks). Then, We add up all the daily balances for cash advances (including Letter Checks) during the billing cycle and divide them by the number of days in the
billing cycle. This gives Us the average daily transactions balances for cash advances (including Letter Checks). The Finance Charge for a billing cycle is computed by
multiplying each of the average daily balances subject to a Finance Charge by the applicable Monthly Periodic Rate. The sum of these separate Finance Charge calculations
is the Finance Charge You owe for that billing cycle.
Your payment due date is at least 27 days after the close of each billing cycle. You can avoid Finance Charges on purchases each month by paying the full amount of the
entire balance owed by the payment due date reflected in Your periodic statement.
Otherwise, the new balance of purchases, and subsequent purchases from the date they are posted to Your Account, will be subject to a Finance Charge. Balance Transfers
and cash advances (including Letter Checks) are always subject to a Finance Charge from the later of the date they are posted to Your Account or from the first day of the
billing cycle in which the cash advance is posted to Your Account.
Transactions will accrue finance charges at an introductory Monthly Periodic Rate of 0.2417% (corresponding to an ANNUAL PERCENTAGE RATE of 2.90%) through
the first 6 billing cycles following the date that Your Account is established (i.e. 6 months). Upon the expiration of the in troductory rate period, the entire balance of
transactions existing at that time and in the future will be subject to the non-introductory Monthly Periodic Rate and its corresponding Annual Percentage Rate described
elsewhere in this Agreement.
The Monthly Periodic Rate that will apply to Your VISA Platinum Account is 0.8666% - 1.5000% (corresponding ANNUAL PERCENTAGE RATE of 10.40% - 18.00%), based
on Your creditworthiness at the time You establish Your Account.
The Monthly Periodic Rate that will apply to Your VISA Platinum Rewards Account is 0.9500% - 1.2000% (corresponding ANNUAL PERCENTAGE RATE of 11.40% 14.40%), based on Your creditworthiness at the time You establish Your Account.
The Monthly Periodic Rate that will apply to Your VISA Platinum Secured Account is 0.8666% (corresponding ANNUAL PERCENTAGE RATE of 10.40%).
VARIABLE RATE. All advances are subject to a Variable Rate which is based on the highest Prime Rate as published in the Money Rates section of The Wall Street Journal
in effect on the last business day of each calendar month ("Index") plus Our Margin. The Index plus the Margin equals the Interest Rate. Changes in the Index will cause
changes in the Interest Rate on the first day of the billing cycle that immediately follows any such change in the Index. Increases or decreases in the Interest Rate will cause
like increases or decreases in the Finance Charge and will affect the number of Your regularly scheduled payments. Your Interest Rate will never be greater than 18.00% and
will apply to Your remaining principal balance.
The Margin that will apply to Your VISA Platinum Account is 5.65% - 14.65%, based on Your creditworthiness at the time You establish Your Account.
The Margin that will apply to Your VISA Platinum Rewards Account is 6.65% - 9.65%, based on Your creditworthiness at the time You establish Your Account.
The Margin that will apply to Your VISA Platinum Secured Account is 5.65%.

Copyright Oak Tree Business Systems, Inc., 2015-2019. All Rights Reserved.

Page 2 of 2

OTBS 016ACC Intro FRB_Web PEOP (4/19)
Rev. (11/19)

